              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The National Nuclear Security
Administration's Enhanced Surveillance
Campaign




DOE/IG-0646                                 April 2004
THE NATIONAL NUCLEAR SECURITY ADMINISTRATION'S
ENHANCED SURVEILLANCE CAMPAIGN

TABLE OF
CONTENTS




                Meeting Enhanced Surveillance Campaign Milestones


                Details of Finding .............................................................1


                Recommendations and Comments ..................................5


                Appendices


                Objective, Scope, and Methodology ................................7


                Related Audit Reports and Internal Reviews ...................9


                Management Comments ................................................11
MEETING ENHANCED SURVEILLANCE CAMPAIGN
MILESTONES

Background               Annually, the National Nuclear Security Administration (NNSA)
                         publishes an Enhanced Surveillance Campaign Implementation Plan
                         that provides a description of the work that the national laboratories,
                         production plants, and sites are to accomplish during the fiscal year.
                         Additionally, the implementation plan includes a series of long and
                         short-term milestones to be completed for each of the six major
                         technical elements (MTE). At the site level, task plans have been
                         developed delineating the work required to meet these milestones.
                         These cascading plans become the benchmark against which progress
                         on the program is measured.

Meeting Implementation   NNSA has experienced delays in completing several Enhanced
Plan Milestones          Surveillance Campaign milestones. Specifically, critical work was
                         not completed as scheduled in four of the six MTEs: pits, canned sub-
                         assemblies, high explosives, and non-nuclear materials. These delays
                         have put some future milestones in jeopardy.

                                                           Pits

                         Both Los Alamos National Laboratory (Los Alamos) and Livermore
                         National Laboratory (Livermore), and the Pantex Plant experienced
                         delays in completing two of four pit MTE milestones. For instance,
                         Los Alamos and Livermore experienced 19 and 23-month delays,
                         respectively, in completing a milestone to prepare plutonium-spiked
                         alloys. These alloys are to be used in accelerated aging tests, which
                         will allow for a more precise estimate of the lifetime of existing pits.
                         The delays, in turn, could impact the timely completion of the Fiscal
                         Year (FY) 2004 milestone to compare the accelerated aging alloys to
                         naturally aged stockpile material. Achieving this milestone is
                         particularly important because an FY 2006 milestone regarding
                         construction of the modern pit facility may be impacted by the results
                         of these tests.

                         Management did not agree with our conclusion that delays in
                         preparing the plutonium-spiked alloy could negatively impact the
                         timely completion of the related FY 2004 milestone. Management
                         advised that the previous delay to prepare plutonium-spiked alloys
                         had been addressed in Los Alamos and Livermore planning and they
                         did not expect any impact on meeting the current FY 2004 higher
                         level milestones.

                         Although NNSA expects to meet the FY 2004 milestone, we noted
                         that Los Alamos and Livermore had previously experienced
                         significant delays in completing the milestone to cast the alloy.

Page 1                                                                     Details of Finding
         The initial alloy was rejected because it did not meet all the required
         specifications. The alloy eventually cast also did not meet the exact
         specifications of that used to manufacture the naturally aged pit. If,
         during the validation period, the pit materials do not favorably compare,
         no contingency remains to resolve discrepancies. This could impact
         successful completion of future milestones.

         Similarly, a Livermore and Pantex milestone to begin high-resolution
         x-ray tomography of pits at Pantex has been delayed by approximately
         13 months, from November 2003 to January 2005. The x-ray
         tomography is intended to take a closer look at the internal structure of
         the pit and provide the capability to magnify defects or anomalies that
         may not be detected by current technology. NNSA is moving forward
         with efforts to incorporate the high-resolution pit x-ray into the
         stockpile surveillance program at Pantex to facilitate non-destructive
         analysis of pits. Although the existing pit surveillance program
         continues, missing this milestone delays the program's ability to
         enhance detection of defects or anomalies.

                                 Canned Sub-Assemblies

         During FY 2002, NNSA missed one of five milestones related to
         canned sub-assemblies. The purpose of the canned sub-assembly MTE
         is to determine when key components need to be replaced. Both Los
         Alamos and Livermore were tasked to validate 3-dimensional models
         for canned sub-assembly aging. While Los Alamos completed the
         milestone as scheduled for its weapon systems, Livermore reduced the
         scope of its model from 3-dimension to a simpler model. A Livermore
         official acknowledged that since the down scoped model did not
         provide the level of complexity originally planned, the 3-dimensional
         model may have to be constructed at a later date for other weapon
         systems.

                                     High Explosives

         During FY 2002, NNSA missed one of two FY 2002 high explosive
         milestones. The high explosive MTE is critical to the life-extension
         program because it provides additional diagnostics to the stockpile
         surveillance program. Both Los Alamos and Pantex missed completing
         milestones related to function test designs covering two weapon
         systems. This could delay the development and implementation of
         more comprehensive diagnostic tools for stockpile surveillance testing,
         originally scheduled for FY 2005.



Page 2                                                      Details of Finding
                   Both Los Alamos and Pantex advised that steps have been taken to
                   continue the project without further delay. They acknowledged the
                   technical risk associated with the development of this diagnostic and
                   that, so far, the risk has not precluded successful implementation on
                   schedule. Given the lack of specific project management schedules or
                   analyses of delays, we were unable to evaluate whether management's
                   actions were sufficient to recover previous slippages.

                                            Non-Nuclear Materials

                   NNSA missed one of ten milestones in the non-nuclear materials MTE.
                   Specifically, Livermore missed a FY 2003 milestone to deliver a Solid
                   Phase Micro Extraction (SPME) diagnostic to the stockpile surveillance
                   program. This diagnostic would aid in determining the effects of aging
                   on non-nuclear materials. Because the milestone was missed, Pantex
                   will experience a delay of approximately 12 months in implementing
                   the SPME into the stockpile surveillance program. As a result, aging
                   defects may go undetected for at least one cycle — typically 12
                   months — of stockpile surveillance testing.

Project Planning   Critical work was not completed as scheduled because, at the site level,
                   NNSA had not effectively applied project management planning
                   principles or incorporated sufficient contingencies into implementation
                   plans. For example, project plans had not included sufficient time or
                   resources to deal with unexpected events that arose such as: inadequate
                   safety basis documents; unavailable facilities; equipment failure; or
                   lack of necessary weapons parts.

                   To illustrate, Los Alamos encountered delays in the pit MTE because
                   laboratory officials did not anticipate the need to update existing safety
                   basis documents. For example, under the existing safety basis
                   documents, the material involved in preparing the spiked alloy was not
                   authorized in the facility they had planned to use. Similarly, Livermore
                   did not foresee the need for updated safety basis documents to complete
                   the same milestone. Livermore also did not allow for the possibility
                   that a needed facility would be unavailable or that equipment at Pantex
                   would fail. In this instance, the facility required to carry out activities
                   associated with this milestone was not available when needed. Had
                   Livermore adequately prepared for this and other contingencies, it may
                   have been able to mitigate delays encountered in the non-nuclear
                   materials MTE (i.e., delivery of a Solid Phase Micro Extraction
                   diagnostic to the stockpile surveillance program). Further, Los Alamos
                   and Pantex experienced delays in the high explosive MTE because
                   neither site had an alternative source in place to obtain the necessary
                   classified parts that had become unavailable.

Page 3                                                                 Details of Finding
                        Management commented that while safety basis issues did delay work
                        on pit milestones, they were not ignored by the sites in the project
                        planning phase. The schedules at the sites were aggressive and success-
                        oriented and, admittedly, allowed little variance in timelines to meet
                        difficult and evolving challenges that are often beyond the control of
                        the Enhanced Surveillance Campaign project manager at the site.
                        While seeking to shorten schedules and to attain aggressive goals is
                        commendable, reasonable contingency planning is still a basic
                        requirement for all well-managed projects.

                        We learned that, starting in FY 2004, NNSA contractors will no longer
                        be required to report milestone progress at the detailed task level, which
                        may also impact project management. Under the new reporting
                        process, contractors will report progress on the higher level
                        implementation plan milestones. Without cost, status, and control
                        information at the detailed task level management may be unable to
                        effectively monitor status or progress to completion.

                        NNSA commented that project and program managers have access to
                        all levels of detail but that control is maintained at the highest level
                        milestones in Headquarters. However, we noted during the audit that,
                        due to budgetary constraints, the number of managers dedicated to the
                        Enhanced Surveillance Campaign at Headquarters was limited.

                        To its credit, one of the sites we reviewed had implemented a formal
                        project management system for its Enhanced Surveillance Campaign
                        projects. Pantex uses the Primavera Project Management tool to
                        manage tasks received from the laboratories. This tool allows managers
                        to establish relationships among activities in separate projects, compare
                        actual performance to original plans, improve processes, and increase
                        accuracy of future estimates. It also aids in project planning by, among
                        other things, analyzing “what-if” alternatives and target plans.

Key Decisions and the   While we recognize the priority that NNSA management has placed on
Annual Certification    the overall stockpile stewardship program, failure to complete critical
                        enhanced surveillance milestones as scheduled could delay warnings of
                        manufacturing and aging defects, impact the annual certification of the
                        nuclear weapons stockpile, and hinder facility planning decisions. The
                        viability of the nuclear weapons stockpile depends upon timely
                        notification of problems so that weapon components can be replaced or
                        systems refurbished before safety, reliability, or performance are
                        adversely affected.

Page 4                                                                      Details of Finding
RECOMMENDATIONS    We recommend that the Deputy Administrator for Defense Programs:

                      1. Implement an effective project management system for
                         planning, organizing, and tracking Enhanced Surveillance
                         Campaign activities and costs;

                      2. Assess the impact that known delays will have on future
                         Enhanced Surveillance Campaign milestones and develop a
                         recovery plan and strategy to mitigate their impact; and,

                      3. Ensure that approved safety basis documents, facilities,
                         equipment, parts, and other infrastructure and resource
                         requirements are considered when planning future Enhanced
                         Surveillance Campaign tasks.


MANAGEMENT         In management's response, which is included as Appendix 3, the
REACTION           Associate Administrator for Management and Administration generally
                   concurred with the findings and recommendations regarding delays in
                   completing Enhanced Surveillance Campaign milestones and stated
                   that a tentative corrective action plan had been developed. However,
                   NNSA did not agree that it is at risk of missing future milestones
                   critical to the success of the Enhanced Surveillance campaign and
                   indicated that the most significant milestones are being achieved on
                   schedule.

                   The Associate Administrator for Management and Administration also
                   provided a number of technical comments intended to clarify various
                   issues raised in the report. These comments have been incorporated
                   into the body of report, where appropriate.


AUDITOR COMMENTS   The actions taken are responsive to the audit report recommendations
                   and should resolve the majority of issues raised in the report. However,
                   despite the assertion that the most significant milestones are being
                   achieved on schedule, NNSA, as the audit report notes, does not
                   currently have in place a fully effective project management system.




Page 5                                           Recommendations and Comments
         This system should include, among other elements, a critical path
         analysis which clearly identifies crucial elements of the Campaign and
         the consequences of not meeting specific scheduled milestones. It
         should be further noted that most of the milestones, referred to in
         management comments, have not come due. As a consequence, neither
         NNSA nor the Office of Inspector General, at this time, can make a
         definitive determination as to the status of the Campaign.




Page 6                                 Recommendations and Comments
Appendix 1
OBJECTIVE     The object of the audit was to determine whether milestones designed
              to achieve the program goal were being met.

SCOPE         The audit was performed between June 2003 and December 2003 at
              Headquarters NNSA, Los Alamos National Laboratory; Lawrence
              Livermore National Laboratory; Sandia National Laboratory-California;
              and the Pantex Plant. The audit examined NNSA's progress in meeting
              the goal of the Enhanced Surveillance Campaign.

METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed Federal and Departmental requirements related to the
                  conduct of enhanced surveillance activities;

              •   Evaluated prior external and internal reports regarding the program;

              •   Analyzed the Enhanced Surveillance Campaign budget;

              •   Evaluated the Enhanced Surveillance Campaign implementation
                  and site task plans;

              •   Reviewed laboratory and plant quarterly updates to management;

              •   Evaluated whether the laboratories and plants were meeting
                  scheduled milestones;

              •   Discussed the Enhanced Surveillance Campaign with officials from
                  NNSA Headquarters, Los Alamos National Laboratory, Lawrence
                  Livermore National Laboratory, Sandia National Laboratory, and
                  the Pantex Plant; and,

              •   Reviewed performance measures established in accordance with the
                  Government Performance and Results Act.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls related to the Enhanced
              Surveillance Campaign. Because our review was limited, it would not
              necessarily have identified all internal control deficiencies that may
              have existed. Additionally, we did not rely on computer-processed




Page 7                                       Objective, Scope, and Methodology
Appendix 1 (continued)
                   data. We also reviewed the implementation of the Government
                   Performance and Results Act of 1993, as it related to the Enhanced
                   Surveillance Campaign. Performance objectives had been established
                   for enhanced surveillance activities.

                   We discussed the findings with the NNSA Enhanced Surveillance
                   Campaign Manager on November 18, 2003.




Page 8                                          Objective, Scope, and Methodology
Appendix 2
                   RELATED AUDIT REPORTS AND INTERNAL REVIEWS

     Office of Inspector General

     •   National Nuclear Security Administration's Planning, Programming, Budgeting, and
         Evaluation Process (DOE/IG-0614, August 2003). The audit disclosed that the National
         Nuclear Security Administration's planning, programming, budgeting, and evaluation
         process was consistent with the Department of Defense process even though budget
         execution and evaluation differ. Although the process provided a mechanism for
         making centralized resource allocation decisions, it did not result in changes for existing
         financial and budgeting systems at NNSA management and operating contractors.

     •   Plutonium-238 Production (DOE/IG-0607, June 2003). The audit disclosed that unless
         the Department accelerates its program to reestablish a plutonium-238 production
         capability, it risks being unable to meet future national security and NASA
         requirements.

     •   Planning for National Nuclear Security Administration Infrastructure (DOE/IG OAS-B-
         03-02, May 2003). The audit disclosed that the NNSA site plans did not contain
         accurate assessments of the structural and mechanical condition of the site's facilities
         nor did they identify and prioritize the mission-critical facilities in need of repair or
         refurbishment.

     •   National Nuclear Security Administration's Nuclear Explosive Safety Study Program
         (DOE/IG-0581, January 2003). The audit disclosed that comprehensive Nuclear
         Explosive Safety studies had been delayed for six of the nine nuclear weapon types
         currently active in the nation's nuclear weapons stockpile.

     •   National Nuclear Security Administration's Test Readiness Program (DOE/IG-0566,
         September 2002). The audit disclosed that Nevada's ability to conduct an underground
         nuclear test is at risk. Nevada and its support organization did not have adequate
         experienced staff, equipment, or facilities to carry out this requirement within the
         established timeframe. The ability to test was made even more difficult because the
         Department did not have a comprehensive plan or methodology to fill key and critical
         positions, validate aging assets, incorporate technology advances, and update Nuclear
         Explosive Safety studies.

     •   Management Challenges at the Department of Energy (DOE/IG-0538, December 2001).
         The audit found that the resolution of safety problems is an urgent need that ranks
         among the most serious challenges facing the Department.




Page 9                                                                         Related Audit Reports
Appendix 2 (continued)

     •    Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The audit found that
          surveillance testing backlogs existed in flight, laboratory, and component testing and
          when tests are delayed or not completed, the Department lacks essential information on
          the operating characteristics and reliability of the weapon

     •    Management of the Nuclear Weapons Production Infrastructure (DOE/IG-0484,
          September 2000). The audit found that the nuclear weapons production infrastructure
          had not been adequately maintained and current and future goals of the Stockpile
          Stewardship Plan are at risk.

     National Nuclear Security Administration Defense Programs

     •    Strategic Review of the Surveillance Program 150-Day Report (January 1, 2001).
          Initiated by NNSA, this strategic review focused on defining the surveillance approach
          that would be most appropriate to assure the continued safety and reliability of the
          nation's nuclear stockpile. The team identified possible changes and improvements in
          the program to meet the needs of an aging stockpile with limitations on testing and an
          increasing need to preserve stockpile assets.

     Other Reports

     •    FY 2001 Report to Congress of the Panel to Assess the Reliability, Safety, and Security
          of the United States Nuclear Stockpile (March 15, 2002). This Congressionally-
          established panel concluded that redirection of the Stockpile Stewardship Program is
          needed to maintain confidence in our nuclear stockpile.

     •    FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety, and Security
          of the United States Nuclear Stockpile (February 1, 2001). This Congressionally-
          established panel found a disturbing gap between the nation's declaratory policy that
          maintenance of a safe and reliable nuclear stockpile is a supreme national interest and
          the actions taken to support this policy.

     •    FY 1999 Report to Congress of the Panel to Assess the Reliability, Safety, and Security
          of the United States Nuclear Stockpile (November 8, 1999). The Congressionally-
          appointed panel reported that effective execution of both the Stockpile Stewardship
          Program and Annual Certification Process offered the best hope for sustaining
          confidence in the nuclear stockpile, and its deterrent capabilities, into the future. The
          panel recommended strengthening and broadening the Annual Certification Process to
          provide assurance that potential problems are being sought out and reported.




Page 10                                                                         Related Audit Reports
Appendix 3




Page 11      Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
                                                                   IG Report No: DOE/IG-0646


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948 or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


              U.S. Department of Energy Office of Inspector General, Home Page
                                   http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
